Department of Homeland Security
   Ofﬁce of Inspector General

            Controls Over SBInet Program Cost and 

                 Schedule Could Be Improved 





OIG-10-96                                             June 2010
                                                             Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 25028




                                                             Homeland
                                                             Security
                              JUN.1
                                 , 62010



                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law.107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the effectiveness of controls to monitor the cost and schedule of
Customs and Border Protection's Secure Border Initiative technology program. It is
based on interviews with employees and officials of relevant agencies and institutions,
direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                     /~oe.~
                                      Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2 


Results of Audit ..................................................................................................................3 


     Contractor Oversight Activities Need Improvement ....................................................4 

     Additional Staff Are Needed to Manage the SBInet Program.......................................9 

     Recommendations........................................................................................................10 

     Management Comments and OIG Analysis ................................................................11 


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................15 

     Appendix B:           Management Comments to the Draft Report .......................................17 

     Appendix C:           Major Program Events .........................................................................23 

     Appendix D:           Key Program Documents.....................................................................24 

     Appendix E:           Major Contributors to This Report ......................................................26 

     Appendix F:           Report Distribution ..............................................................................27 


Abbreviations
     ANSI/EIA              American National Standards Institute/Electronics Industries Alliance
     CBP                   Customs and Border Protection
     DHS                   Department of Homeland Security
     EVM                   Earned Value Management
     EVMS                  Earned Value Management System
     OIG                   Office of Inspector General
     SBI                   Secure Border Initiative
     SBInet                Secure Border Initiative (Technology Solution)
     STO                   Systems Task Order




                          Controls Over SBInet Cost and Schedule Could Be Improved
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                 We conducted an audit of U.S. Customs and Border Protection’s
                 control of its Secure Border Initiative technology program. Our
                 objective was to determine whether the program office has
                 implemented adequate controls to ensure that cost overruns are
                 avoided and established milestones are met. To accomplish this
                 objective, we reviewed four task orders for the program in fiscal
                 year 2008, totaling approximately $267 million.

                 Customs and Border Protection needs to improve its control of
                 contractor activities on the Secure Border Initiative technology
                 program. Specifically, program officials did not ensure that
                 contractors maintain up-to-date information in the primary
                 management tool designed to provide managers with advance
                 information regarding potential cost overruns and program
                 progress. In addition, SBInet program officials did not ensure that
                 a program event was properly completed before progressing to the
                 next event and did not adequately document their review and
                 acceptance of accomplishments and criteria at program events.
                 Finally, the low number of government personnel to oversee
                 contractor activities increased the SBInet program office’s risk that
                 program cost and schedule could not be adequately managed.
                 Consequently, the SBI program office’s ability to ensure that both
                 current and future program goals are accomplished is reduced.

                 U.S. Customs and Border Protection has taken steps to improve
                 Secure Border Initiative technology program oversight by using
                 the Defense Contracting Management Agency personnel to assist
                 with contract administration and reissuing important program
                 documentation. During January of 2010 the Secretary directed the
                 Department of Homeland Security to conduct a thorough
                 evaluation of the SBInet program to consider options that may
                 better meet border security needs. We are making four
                 recommendations to Customs and Border Protection that will
                 enhance the program office’s ability to ensure that costs are
                 contained, schedules are met, and performance requirements are
                 accomplished. CBP concurred with the four recommendations and
                 are in the process of implementing corrective actions.




             Controls Over SBInet Cost and Schedule Could Be Improved 

                                      Page 1                                             

Background
                 In November 2005, the Department of Homeland Security (DHS)
                 established the Secure Border Initiative (SBI). The SBI program is
                 a comprehensive, department-wide effort to secure the Nation’s
                 borders. The U.S. Customs and Border Protection (CBP) was
                 tasked with serving as agent for the execution of the SBI program.

                 Since fiscal year 2005, Congress has appropriated more than $3.6
                 billion for SBI. DHS estimates that the total cost to complete the
                 acquisition phase of the program on the southwest border will be
                 $7.6 billion for fiscal years 2007 through 2011. Approximately
                 $5.1 billion of the $7.6 billion is for the design, development,
                 integration, and deployment of fences, roads, vehicle barriers,
                 sensors, radar units, and command, control, and communications
                 equipment. The remaining $2.5 billion is for integrated logistics
                 and operations support.

                 A component of the overall SBI effort is the Secure Border
                 Initiative Net (SBInet), a major acquisition program initiated to
                 gain operational control of the borders by designing a new
                 integrated system of technology, infrastructure, and personnel. In
                 September 2006, the department awarded a three-year, indefinite
                 delivery/indefinite quantity contract to the Boeing Company to
                 integrate and implement a technology solution to monitor the
                 southwest border. As of February 2010, CBP had awarded 13 task
                 orders to Boeing, for approximately $1.2 billion for the SBI
                 program.

                 The SBInet program office is responsible for planning, acquiring,
                 and deploying the appropriate combination of technology and
                 tactical infrastructure for border security. The program office is
                 also responsible for ensuring effective oversight of the SBInet
                 program, including cost and schedule control, which entails
                 analysis and reporting on program status information. Relevant
                 and timely program cost and schedule data must be provided to
                 and reviewed by program officials to detect early warning
                 indicators of potential problems and to facilitate preventive or
                 corrective actions.

                 The department’s ability to monitor SBInet has been a continuing
                 concern. In November 2006, we reported that the department
                 needed to build the organizational capacity to manage the SBInet




             Controls Over SBInet Cost and Schedule Could Be Improved 


                                      Page 2 

                         program and implement processes to mitigate workforce turnover. 1
                         At program initiation, the department did not have the acquisition
                         workforce required to plan, oversee, and execute SBInet. More
                         recently, in June 2009 we reported that CBP had not established
                         adequate controls and effective oversight of contract workers
                         responsible for providing SBI program support services.2

                         In addition, in September 2008 the Government Accountability
                         Office found significant risk of the SBInet program not meeting
                         mission needs and performing as intended, as well as the risk of
                         increased program cost and time-consuming system rework.3 The
                         Government Accountability Office attributed these risks to the
                         continually changing scope and timing of SBInet capabilities, the
                         absence of properly defined and managed requirements, the
                         absence of a program schedule to guide the execution of the
                         program and schedules that continually change, and ineffectively
                         managed testing. During January of 2010 because of growing
                         concerns regarding the efficacy of the implementation of SBInet
                         planning and technologies, the Secretary of DHS requested a
                         department-wide reassessment of the program. The objective was
                         to identify alternatives that may more efficiently, effectively and
                         economically meet border security needs. Subsequent to this
                         reassessment the Secretary froze all SBInet funding beyond
                         SBInet’s initial deployment to the Tuscson and Ajo regions until
                         the rassessment is complete.

Results of Audit
                         CBP needs to improve its control of contractor activities on the
                         SBI technology program. Specifically, program officials did not
                         ensure that contractors maintain up-to-date information in the
                         primary project management tool designed to provide managers
                         with advance information regarding potential cost overruns and
                         program progress. In addition, SBInet program officials did not
                         ensure that a program event was properly completed before
                         progressing to the next event and did not adequately document
                         their review and acceptance of accomplishments and criteria at
                         program events. Finally, the low number of government personnel

1
  Risk Management Advisory for the SBInet Program Initiation, DHS OIG-07-07, November 2006.
2
  Better Oversight Needed of Support Services Contractors in Secure Border Initiative Program,,
DHS OIG-09-80, June 2009.
3
  Secure Border Initiative: DHS Needs to Address Significant Risks in Delivering Key Technology
Investment, Government Accountability Office (GAO-08-1086, September 10, 2008).



                    Controls Over SBInet Cost and Schedule Could Be Improved 


                                                Page 3 

                         to oversee contractor activities increased the SBInet program
                         office’s risk that program cost and schedule could not be
                         adequately managed. Consequently, the SBI program office’s
                         ability to ensure that both current and future program goals are
                         accomplished is reduced.

                Contractor Oversight Activities Need Improvement

                         Project Management Tool Not Kept Up-to-Date

                         CBP personnel did not ensure that current baseline information
                         was entered into the Earned Value Management System (EVMS),
                         the primary oversight system designed to provide management
                         with advance information of potential cost overruns and schedule
                         slippages. A baseline is time-phased information used to measure
                         work performance. It provides the basis for all program-planning
                         activities; cost estimates; and project and program status
                         determination, analysis, and reporting.

                         Office of Management and Budget Circular A-11,4 the Federal
                         Acquisition Regulation, and DHS guidance require the use of an
                         EVMS to monitor performance on major investments and systems
                         under development, such as SBInet. Also, the contract requires the
                         contractor to provide the system that meets the criteria as defined
                         in the current American National Standards Institute/Electronic
                         Industries Alliance (ANSI/EIA) Standard 748-1998, Earned Value
                         Management Systems, approved May 19, 1998. Together, these
                         criteria require that task orders in support of programs that have
                         assets in the development, modernization, or enhancement phase to
                         use EVMS to measure the cost, schedule, and performance of those
                         assets against the established baseline. Similarly, Guideline 8 of
                         the ANSI/EIA Standard, as well as references within the
                         contractor’s Cost Management Plan and the Integrated Master Plan
                         Manual, stipulate that work be baselined as soon as possible after
                         the contractor receives the authority to proceed, regardless of
                         whether an integrated baseline review has been conducted and
                         unless contractual authorization says otherwise. An integrated
                         baseline review is the process to establish and maintain an
                         understanding between the contractor and the government of the
                         baseline as a means of mitigating risk.



4
 Office of Management and Budget Circular A-11, Preparing and Submitting Budget Estimates, August
2009.


                   Controls Over SBInet Cost and Schedule Could Be Improved 


                                              Page 4 

    When implemented correctly, Earned Value Management (EVM)
    provides managers with the necessary information to ensure that
    day-to-day decisions keep program performance consistent with
    established objectives. Without accurate baseline information to
    reflect cost and schedule variances, management is hampered in its
    ability to make viable operational decisions. EVM assists with
    work planning, performing work activities according to the plan,
    and measuring accomplishments against the plan. EVM mitigates
    the risk of cost and schedule overruns, bringing visibility and
    advance warning of problems before tasks are completed, and
    providing opportunities for proactive corrective actions. EVM also
    provides a forecast of final program cost and schedule outcomes.
    Essential to EVM is a cost baseline—the time-phased budget
    information used to measure work performance. This cost baseline
    provides the reference point for all program-planning activities,
    cost estimates, and project and program status determinations,
    analysis, and reporting.

    We reviewed four fiscal year 2008 task orders each valued at over
    $20 million. For one of the task orders, the Integrated Logistics
    Support task order, the contractor was not required to use EVM
    because it was classified as a level-of-effort task order. The other
    three task orders showed that the EVM process had not been
    working as an effective management cost control tool for the
    SBInet program. Outdated or incomplete baseline information for
    these task orders hampered accurate EVM tracking and subsequent
    cost control. Baseline information for the Arizona Deployment
    Task Order and incremental work in the System task order and
    Command, Control, Communications, and Intelligence Common
    Operating Picture task order were not updated in EVMS. The
    contractor and program office chose to wait until the integrated
    baseline review was conducted or incremental work was
    definitized before entering such data. Accordingly, managers were
    only able to review actual costs incurred with no basis for
    comparing actual money spent to projections, greatly increasing
    the risk that program managers could not identify cost overruns,
    measure progress, and track and schedule performance.

    Since June 2008, CBP has contracted with the Defense Contract
    Management Agency to provide surveillance of the contractor’s
    EVMS. This surveillance was not in place for the FY 2008
    information on the task orders included in this review. Defense
    Contract Management Agency representatives are included in
    program meetings with the contractor and have served to promote



Controls Over SBInet Cost and Schedule Could Be Improved 


                         Page 5 

    contractor cooperation regarding inclusion of baseline information
    in the EVMS by issuing Corrective Action Reports.

    Review and Acceptance Of Program Events Not Adequately
    Documented and Properly Completed

    SBInet program officials did not adequately document their review
    and acceptance of accomplishments and criteria at program events
    due to the absence of an established process for doing so. As a
    result, documentation does not exist to demonstrate that
    contractors produced deliverables, such as radar and camera units,
    that met project objectives and schedules. Also, SBInet officials
    did not ensure that a program event was properly completed before
    progressing to the next event increasing the risk of significant
    rework and associated project delays.

    Inadequate Documentation of Program Events

    Major system acquisitions like SBInet typically are divided into
    program events. These program events are identified in the
    Integrated Master Schedule and Integrated Master Plan and include
    target dates, milestones and tasks to be accomplished by all major
    System Program Office, System Prime Contractor, and other
    SBInet stakeholders.

    According to the SBInet Program Management Plan, management
    review of key milestones provides an effective mechanism for
    reporting, tracking, and managing project progress and ensuring
    that delivered products and services meet established project
    objectives and schedules.

    The SBInet program office does not have an established process
    for documenting and archiving historical information on
    government decisions and acceptance of program events. This
    reduces the program office’s ability to ensure that a program event
    actually occurred, produced the intended results, and transpired
    within established timeframes, as well as whether deliverables met
    program objectives before the program progresses further.

    For example, the Preliminary Design Review milestone was closed
    as part of the entrance criteria to continue with the subsequent
    program event. There was no documented evidence of government
    acceptance and closure of this milestone prior to entering the next
    program event. (See Appendix C for a list of major program
    events.)


Controls Over SBInet Cost and Schedule Could Be Improved 


                         Page 6 

    In another example, the program office was unable to provide
    documentation supporting the closeout of two of the five program
    events we requested for the Command, Control, Communication
    and Intelligence Common Operating Picture task order, and was
    not able to provide documentation reflecting the government’s
    review and resulting decisions for all five program events. The
    program office only maintained PowerPoint documents of the
    contractor’s briefings on program events. These documents do not
    provide adequate detail to facilitate proper contract management
    and oversight.

    Program Events not Properly Completed

    Program events have associated accomplishments and criteria that
    must be met to begin (entrance criteria) or successfully completed
    (exit criteria) before progressing to the next event in the program.
    Events are normally considered complete after all entry and exit
    criteria have been satisfied; all issues have been addressed and
    assessed, the status agreed upon; and an updated risk assessment
    has been completed. When program events are not successfully
    accomplished before progressing to the next event there is
    increased risk that significant resources may be wasted because
    identified deficiencies or other problems have not been properly
    resolved. Proceeding with events without being ready or without
    successful completion of previous events simply because the
    “scheduled date” occurs, is considered a “scheduled-driven”
    approach to project management. The Integrated Master Plan is
    event driven and not schedule driven and each program event
    should occur based on the completion of its supporting
    accomplishments and criteria supporting those accomplishments.

    SBInet program event criteria has not been properly satisfied
    before the program continued to move forward. For example, in
    early 2007, CBP accepted and closed out the Systems Requirement
    Review even though the event deliverables did not meet project
    objectives. This occurred because of the program office’s desire to
    keep moving forward to meet established schedules, i.e. scheduled-
    driven. The Systems Requirement Review was one of the early
    major program events requiring the government and the contractor
    to develop, define, and agree on program requirements. In a
    December 2009 letter from the contractor to the SBInet Program
    Office, the contractor stated that premature acceptance and closure
    of the Systems Requirement Review event without successfully



Controls Over SBInet Cost and Schedule Could Be Improved 


                         Page 7 

    completing its criteria, resulted in significant rework during both
    the detail design and test planning phases of SBInet program.
    More recently the Department’s Acquisition Review Board took
    steps to ensure that the System Qualification Test program event
    was completed and all issues addressed before moving forward
    with subsequent program events. For instance, the SBInet Test and
    Evaluation Master Plan identified specific exit criteria to move
    from developmental testing to system deployment and testing
    under operational conditions. System Qualification Test is one of
    two key events in the exit criteria. System Qualification Testing
    disclosed five major deficiencies:

    1.   Tower sway in windy conditions;
    2.   Radar generated clutter;
    3.   Radar circuit breakers frequently tripped;
    4.   Camera image blurry in windy condition; and
    5.   Frequent computer crashes.

    In September 2008, the DHS Acquisition Review Board issued a
    SBInet Acquisition Decision Memorandum mandating the
    completion of more system testing before proceeding to
    deployment. In February 2009, the Acquisition Review Board
    issued another Acquisition Decision Memorandum stating that full
    deployment at the first site in Tucson 1, and deployment at the
    second site Ajo-1, both in Arizona, were not authorized until the
    System Qualification Testing issues were resolved. Later, in May
    2009 the Acquisition Review Board approved deployment in the
    first and second sites after being briefed on the resolution or
    mitigation of the System Qualification Testing issues. However, as
    of February 2010 the SBInet Program Office has not yet
    considered the System Qualification Testing program event as
    closed and with all issues assessed although deployment of the
    technology solution to the first site in Tucson 1 commenced in
    May 2009.

    Moving forward with the SBInet program without adequate
    satisfaction of program events criteria and resolution of its
    significant issues could result in a deployed system that does not
    fully meet program objectives and the waste of significant
    resources. The absence of updated baselines and documented
    events review and acceptance dates makes it difficult for the
    government to hold contractors accountable for not meeting
    timeframes or not making progress towards accomplishing
    acquisition expectations. Also, improper closeout of program
    events increases the risk of project delays and wasted resources.


Controls Over SBInet Cost and Schedule Could Be Improved 


                         Page 8 

                          Assurance of due diligence for closure and documentation of
                          government review decisions should be made for all SBInet
                          program events to ensure significant resources are not wasted, and
                          project objectives are met and accomplished within intended
                          timeframes.

                  Additional Staff Are Needed to Manage the SBInet
                  Program
                          Being fully staffed with qualified personnel is important for
                          implementing effective controls over program costs and schedules.
                          The low number of government personnel to oversee contractor
                          activities increased the SBInet program office’s risk that program
                          cost and schedule could not be adequately managed.

                          At the time of our review, the SBInet Program Office had only two
                          schedule analysts and one earned value analyst on board
                          performing Earned Value and Schedule Management activities for
                          the entire program. These three employees were all Support
                          Services Contractors responsible for important cost and schedule
                          oversight activities, such as ensuring that the reported schedule and
                          earned value information were accurate.

                          For example, according to the SBInet Program Management Plan,
                          the schedule management staff must develop and maintain a
                          cohesive Integrated Master Schedule and Integrated Master Plan.
                          Along with this, the earned value management staff is responsible
                          for maintaining the Work Breakdown Structure, and for assisting
                          with assessing compliance with the ANSI standards for EVM and
                          performing earned value surveillance activities, which include
                          developing, implementing, and maintaining program baselines.
                          (See Appendix D for a list of key program documents and their
                          purpose.)

                          Since early stages of the SBInet acquisition, the SBInet Program
                          Office has faced challenges in maintaining adequate staffing, as we
                          highlighted in several prior audit reports.5 In addition to these
                          challenges, the SBI Program Officials stated that the initial
                          assumption that commercial off the shelf technology would be
                          available to cover SBInet needs, serving as a basis for determining
                          staffing requirements, ultimately proved to be wrong.
                          Consequently, staffing needs should be reassessed.

5
    OIG-09-80 and OIG-07-07.


                     Controls Over SBInet Cost and Schedule Could Be Improved 


                                              Page 9 

     The low number of staff performing Earned Value and Schedule
     Management activities highly increases the risk of the program
     office not being able to properly control SBInet cost and schedule
     and timely react to operating issues encountered, such as the result
     of not using commercial off the shelf technology. During the time
     of our review, the SBInet acquisition was undergoing significant
     changes requiring updates to important program cost and schedule
     documents. The SBInet program office was operating without an
     approved Integrated Master Schedule, and the contractor was using
     a Work Breakdown Structure that had not been vetted by the
     government and was in non-compliance with ANSI Guideline 8
     requiring the use of baseline information as soon as possible.

     According to program office staff responsible for earned value and
     schedule management activities, the low number of personnel with
     adequate authority to perform earned value and schedule
     management activities in the program office reduced their ability
     to respond to such issues when they arose and affected their ability
     to complete all assigned tasks.

     To improve overall management and oversight of SBInet
     contractor activities, the SBInet Program Office was in the process
     of re-structuring in 2009. During the time of our review a
     government employee was added to serve as direct supervisor of
     the schedule and earned value analysts. Having a government
     employee as focal point for the analysts should improve the
     Program Office’s authority to ensure contractor compliance with
     contract requirements, such as reporting accurate schedule and
     earned value information. In addition, the SBI Program Office was
     in the process of developing a long-range Human Capital Plan to
     describe the necessary competencies of the acquisition workforce,
     along with the individual skill sets and levels needed to execute
     and sustain current and future acquisition efforts.


Recommendations
     We recommend that the Commissioner of Customs and Border
     Protection require the SBInet Program Office to:

     Recommendation #1: Ensure that no work effort, subject to
     earned value management system requirements, is performed
     without adequate corresponding performance measurement
     baselines in the Earned Value Management System, as required by
     prescribed guidelines.


 Controls Over SBInet Cost and Schedule Could Be Improved 


                         Page 10 

     Recommendation #2: Develop and implement a process to
     document government review and acceptance of program events’
     accomplishments and criteria. Documentation should clearly show
     program office evaluation and justification for approval and
     acceptance of all accomplishments and criteria for a program event
     to certify deliverables met project objectives and events were
     adequately completed before the program progresses.

     Recommendation #3: Ensure that program events have been
     properly completed to include satisfaction of all entry and exit
     criteria; all issues have been addressed and assessed, the status
     agreed upon; and an updated risk assessment before proceeding
     with subsequent program events.

     Recommendation #4: Reevaluate the SBInet program staffing
     plan and have an adequate number of earned value and schedule
     management analysts to support the current workload for the
     SBInet acquisition and to implement all control duties assigned, as
     prescribed in the Program Management Plan.

Management Comments and OIG Analysis
     CBP concurred with the four recommendations and the
     recommendations are considered resolved. The recommendations
     will remain open until CBP provides documentation of the
     measures taken to address them. CBP’s response to the
     recommendations and our analysis is presented below. A copy of
     CBP’s written response is included in Appendix B.

     CBP’s Comment to Recommendation #1: CBP concurred with
     this recommendation but suggested revising the recommendation
     language to make it less broad.

     OIG Analysis: To further clarify the recommendation language
     we reworded it to “Ensure that no work effort, subject to earned
     value management system requirements, is performed without
     adequate corresponding performance measurement baselines in the
     Earned Value Management System, as required by prescribed
     guidelines.”

     This recommendation is resolved but will remain open until CBP
     provides documentation of the measures taken to address this
     recommendation.




 Controls Over SBInet Cost and Schedule Could Be Improved 


                         Page 11 

    CBP’s Comment to Recommendation #2: CBP concurred with
    this recommendation and reported measures that it is undertaking
    to address it. CBP set December 2010 as the due date for
    completion of reported measures.

    OIG Analysis: This recommendation is resolved but will remain
    open until CBP establishes that it has implemented the process and
    tools to manage program information requirements for program
    events.

    CBP’s Comment to Recommendation #3: CBP concurred with
    this recommendation but stated that the report inaccurately
    concludes CBP did not assess all issues prior to commencing TUS-
    1 deployment. CBP also stated that not every single criterion
    needs to be fully resolved prior to advancing in the program and
    the Program Manager is to make a risk-based determination on
    whether, and how to advance based on the nature of open work
    (unfulfilled criteria) and the scope of the ensuing tasks. CBP
    stated a risk assessment was performed for the program resulting in
    the February 2009 Acquisition Decision Memorandum (ADM)
    mandating to commence only limited deployment at the TUS-1
    site.

    OIG Analysis: This recommendation is resolved but will remain
    open until CBP demonstrates that steps have been taken to
    preclude the recurrence of this issue. See OIG analysis to CBP’s
    Comment #1 below, for additional OIG comments.

    CBP’s Comment to Recommendation #4: CBP concurred the
    recommendation. CBP also commented that it expressed concerns
    regarding our assessment of the number of staff performing earned
    value and schedule management activities during the time of our
    review. They asserted that, at the time, they had an adequate
    number of analysts to perform all assigned control responsibilities.

    OIG Analysis: This recommendation is resolved but will remain
    open until CBP provides documentation defining roles and
    responsibilities of personnel dedicated to perform cost and
    schedule management activities and this information can be
    aligned with the organizational charts.

    Our report statement that additional staff were needed is supported
    by CBP’s actions in March of 2009, when they reorganized the
    program office and initiated hiring actions to achieve an
    appropriate number of government earned value and schedule


Controls Over SBInet Cost and Schedule Could Be Improved 


                        Page 12 

    management analysts to be deployed throughout the program
    office.

    CBP’s General Comments to the Report:

    In addition to the comments to the recommendations, CBP made
    general comments to the report. The following paragraphs
    summarize CBP’s comments and provide OIG comments.

    CBP Comment #1: CBP expressed concerns regarding our
    assessment that CBP proceeded with the deployment of the
    technology solution without having assessed all major issues
    identified at the System Qualification Testing program event. CBP
    also requested the OIG report be revised to (1) reflect the
    Department’s ADM approval for limited TUS-1 construction
    documented in the February 2009 ADM, which they state the
    current report reflects as not authorized, and to (2) reflect that the
    limited deployment outcome was in fact based on an actual risk-
    based analyses and decision-making process regarding risk and
    remaining work as part of the formal acquisition review process.

    OIG Analysis: The OIG reported that CBP proceeded with the
    program when significant program events had not been properly
    completed. Their System Qualification Testing was a key program
    event that disclosed five major deficiencies. Based on our analysis
    of the data collected, as of February 2010 CBP had not yet
    assessed whether corrective actions for all the major issues
    identified at the System Qualification Testing program event were
    effective, yet they proceeded with deployment of the technology
    solution.

    Current language in the report was not intended to represent that,
    based on the February 2009 Acquisition Decision Memorandum,
    all deployment at the first site was not authorized. To further
    clarify, we reworded the report to reflect “full deployment at the
    first site in Tucson-1 and deployment at the second site Ajo-1, both
    in Arizona, were not authorized until the Systems Qualification
    Testing issues were resolved.”

    CBP Comment #2: CBP expressed concerns regarding our
    assessment of the number of staff performing earned value and
    schedule management activities. They stated we only talk about
    three analysts with database responsibility and forgot to
    acknowledge the “at least five contract analysts assigned to the
    Boeing task orders providing program control support throughout


Controls Over SBInet Cost and Schedule Could Be Improved 


                        Page 13 

    2008.” CBP also stated that we erroneously conclude a causal
    relationship between a perceived low number of analysts and
    increased program risk.

    OIG Analysis: Our finding that CBP had three analysts
    performing cost and schedule management duties and that this low
    number of personnel increases program risk, was based on
    documents provided by CBP and information obtained from
    interviews with program personnel and senior program officials.

    During our review senior program officials also stated that they
    would agree that the low number of program staff increases the
    risk to promptly respond to issues that arise in the acquisition
    process.

    CBP Comment #3: CBP commented that the report mistakenly
    states that “commercial-off-the-shelf (COTS) technology would be
    available to cover SBInet needs was a failed program assumption.”
    CBP stated that the current SBInet solution in Tucson is
    predominantly COTS equipment. They also stated that the number
    of cost and schedule analysts needed in the program has no
    relationship to the COTS aspect of the program.

    OIG Analysis: Senior program officials stated during the course
    of our review that when originally determining the staffing needs,
    the assumption was made that “commercial-off-the shelf items
    would work and consequently large staff would not be needed.
    However, this assumption was later proven to not be valid.”

    CBP’s experience with Project 28 showed challenges using the
    commercial-off-the-Shelf technology equipment. Although,
    commercial-off-the-shelf equipment is being used, there have been
    major challenges with the integration of the commercial-off-the-
    shelf technology. System integration is part of the SBInet program
    needs. Consequently, we agree with the senior program official
    statement that the assumption that commercial-off-the-shelf
    technology would be available to cover SBInet needs was a failed
    program assumption.




Controls Over SBInet Cost and Schedule Could Be Improved 


                        Page 14 

Appendix A
Purpose, Scope, and Methodology

                      Our objective was to determine whether the SBInet Program
                      Office has proper control over the SBInet program to ensure that
                      schedules are met and costs are contained. We initiated this
                      review in response to the FY 2007 Homeland Security
                      Appropriations Conference Report, which directed the Inspector
                      General to review and report on SBI contract actions in excess of
                      $20 million.

                      For our audit, we selected and reviewed the following four task
                      orders associated with SBInet contract actions over $20 million for
                      Fiscal Year 2008:

                          •	 Arizona Deployment Task Order,
                          •	 Command Control Communications and Intelligence
                             Common Operating Picture Task Order,
                          •	 Integrated Logistics Support Task Order and, and
                          •	 System Task Order.

                      Together, the four task orders totaled approximately $267 million.
                      Our office identified control processes and procedures in place and
                      tested whether these controls were working as intended for the four
                      task orders.

                      We conducted fieldwork at Customs and Border Protection
                      Headquarters in Washington, D.C. We interviewed program
                      officials in the SBInet Program Office and the SBI Acquisition
                      Office, as well as government personnel from the Defense Contract
                      Management Agency who currently provide certain contract
                      administration services to DHS. We also reviewed key program
                      documents and pertinent policies and procedures.

                      We reviewed pertinent EVM criteria, obtained and reviewed fiscal
                      year 2008 EVM Reports, and reviewed corrective action requests
                      developed by the oversight agency, Defense Contract Management
                      Agency. We met with schedule analysts, earned value analysts and
                      project managers to understand how the program office establishes
                      and uses milestones, schedules, and EVMS reports. We reviewed
                      key program documents, such as the Acquisition Program
                      Baseline, the Program Management Plan, the Systems Engineering
                      Plan, the Integrated Master Schedule, and the Integrated Master
                      Plan. Finally, we analyzed data to determine whether and how
                      cost goals and milestones were met.




    SBInet Program Office Needs to Enhance Control Over the Program’s Cost and Schedule 

                                          Page 15
 

Appendix A
Purpose, Scope, and Methodology


                      We conducted our audit from October 2008 through May 2009
                      under the authority of the Inspector General Act of 1978, as
                      amended, and in accordance with generally accepted government
                      auditing standards. Those standards require that we plan and
                      perform the audit to obtain sufficient, appropriate evidence to
                      provide a reasonable basis for our findings and conclusions based
                      on our audit objectives. We believe that the evidence obtained
                      provides a reasonable basis for our findings and conclusions based
                      on our audit objectives.




    SBInet Program Office Needs to Enhance Control Over the Program’s Cost and Schedule 

                                          Page 16
 

Appendix B
Management Comments to the Draft Report

                                                                      131111 Ptonmyh'ama A'enue ,,-W
                                                                      \'\'"hingl<>n, DC !IlH9



                                                                      u.s. Customs md
                                                                      Border Protection

                                                                April 29. 2010



   MEMORANDUM FOR RICHARD L. SKIl\NER
                  INSPECTOR GENERAL
                  DEPARTMENT OF IIOMELAKD SECURITY

   FROM:                    Assistant Commissioner    ~"~                               'i(tf«!.l&
                            Office oflntemal Affllirs    CS"'" -- - (                              ,
                            U.S. Customs lind Border Protection

   SUBJECT:                 Response to the Office of Inspector Generlll·s Draft Report
                            Entitled, "Controls 0\ er SBIIlt'/l'rogram Cost and Schedule
                            Could Ix: Impro\ed··

   Thank )OU for providing us with a copy of your dwft report entitled. "Controls O\er
   5131111'1 Progrnm Cost and Schedule Could be Improved:· and the opportunity to comment
   on the issues in this report. The report identifies measures that the U.S. Customs:md
   Border Protection (CBP) SBll1el Program Office e:m take 10 enhance the o\erall
   effectiveness of cost lind schedule comrols.

   CBP acknowledges and appreciales the changes that \\ere made hy the Office of
   Inspector General (OIG) in its draft report based on Ihe discussions that were held at the
   exit conference.

   The report conmins four recommendations for CI3P lIction, CI3P concurs \\ ilh Ihe
   fl."'Commendalions:md believes the inlent of Recommendations I. .) and 4 have been
   satisfied by actions taken to improve cost and schedule m:magement at both the
   Depanment and the program level.

   As an inilial mailer. since the OIG's review in 2008. man~ signilic(lnl accomplishmenls
   have resulted in substanti\e program management improvemems and results. Chief
   among these aceomplishmems are:

       •   Program Baseline: The Dcparlmem of llomelalld SecurilY (OilS) A1;quisition
           Review Board (ARB) haselined the SBlllelBlock I progrnm objectives. strmegy.
           major supporting plans (e.g.. test and evaluation. imegrated logistics SlJpporl). and
           risks. Through a seri.:s of Acquisition DlXision Memoranda (ADM). the
           Department approved fllock I engineering. testing. and deployment activilies
           based on thorough reviews of program a<;1;otnplishments:. remaining un1;crtainty
           and program risk. and the ullimate need to deliver effective capabililies to the
           flordcr I'atrol. The primary result of these decisions was to ~tllbilize the progrant




    SBInet Program Office Needs to Enhance Control Over the Program’s Cost and Schedule 

                                                Page 17
 

Appendix B
Management Comments to the Draft Report


                                                2

         plans. and more importantly. the associated Boeing camrac! task orders where the
         vast majorit) of the funds arc spent. The lack of slabiIi I) was the primary
         impedimenT to efTective earned value management practices cited by the DIG.

     •   Program l\Ianagl'm('nl:    Ne\~   leadership at the Secure Horder lniliati,e (SBI)
         government and the Boeing contractor program manllgemcnl offices have
         significantly improved SBllle(s focus. discipline. rigor. :md overall dT~tiveness
         in planning and program control. As an example. the program leadership team
         implemented several comprehensive engineering and testing reviews as pan of an
         "event-based" program plan. These added eITons included. among others.
         detailed Root Cause-Corrective Action analyses for major deficiencies. and
         increasing the amount and complexity of field s)'slCm testing. in order to establish
         high conlidcllce in systcm progress before continuing"" ith significant future
         investments. Moreover. the 5131 Program Oflice reorganized in early 2009 to
         focus and solidify ley systelll engineering and business manag"m"nt disciplines;
         5Bl continues updaling or creating program documentation to reinforce cost and
         schedule controls.

     •   Prognlnl Progres.~: SI3I and l30eing have completed - construction of the Iir.;t
         I3loek I production system in Tucson. Arizona; deployment of camera
         SUf\eillanee systems to l3ulTalo and D\....mit under a lixed-price contract and
         nearly on schedule; establishment of a full-time maintenance and supply system
         for Mobile SUTVcilhmce Systems thal has inereascd operational availabilit)' for
         these s)'stems from an initial 55 percent ratc to over 95 percent a\ailability today;
         and the Block I deplo) ment to Tucson. built predominantly with commercially
         aVllilllble tcchnologies. is in operation today and the Border Patrol opemtors have
         experienced positi\ e results with early operations to date.

  Thesc accomplishments are evidence and outcomes of improved management controls
  estllblishcd over the past year and a half.

  Not withstanding our concurrence with the report recommendations. CBP takes exception
  tn ~nme of the fincling~ and conclusions in the rlmft repofl, identified hclo'W'

     •    (page 8. I" and 2"" wholc paragraph) The OIG repon inaccurately eondud,:s that
         the SBl Program Omce did not ass<:ss risks prior to commencing TUS-I
         deployment. In fact. S81 revielled risks and plans with the OilS ARB. and the
         Department rendered a risk-based decision to continue with :I limited deployment
         activity while completing ongoing systems engineering and testing elTons.
         Specifically. SI3I prescnted to the DlIS ARB the initial System Qualifie3l10n
         Testing (SQT) results. including five major "deficiencies." Additionally.SBI
         presented clearly the system performance inform3lion gained. the information yet
         needed. and the associmed tasks thm could be initiated \\ hile S81 continued (0
         address the remaining technical concerns and plllilIling updates. The Depanment
         largely agreed with SSl's recommend3lions. and approved in January 2009
         (documented in the February 2009 ADM) the initial construdion activities for
         TUS·} scnsor and communications towers and the command center upgrades.




                   Controls Over SBInet Cost and Schedule Could Be Improved 


                                                 Page 18 

Appendix B
Management Comments to the Draft Report


                                                   3


           Also. the Depanment deferred deployment of sensor pa~loads to TUS-l and
           deferred all construction at AJO-l until 5131 completed lind presented additional
           engineering and testing information. These dcpanmcntal dl'tisions rdlect the
           actual risk-based analyses find decision-making thaI the OIG ciles as missing.
           Therefore. the OIG draft report should be corrected 10 (1) renect the Department's
           ADM approval for limited TUS-I construction (current draft says TUS-!
           construction was not authorized). and (2) renect that the limited deployment
           outcome was in fael based on an actual risk-based analyses and decision-making
           process regarding risk and remaining work as pan orthe formal acquisition
           revic\\ process.
       •   (page 9. 2n<l and 5'h paragraphs) The DIG incorrectly ciles the full number OrCOSl
           and schedule anal)'sts deployed in the SHlnel program. and erroneousl~ concludes
           a causal relationship bew.een a perceived 10\\ number of analysts and increased
           program risks. The DIG fails to acknowledge the fulll1umber of cost and
           schedul~ analysts deployed across the program~ and projects. Throughout 2008.
           SBI had at least five contract analysts assigned to the Boeing lask orders
           providing program control suppon. as well as thrcc full-timc support analysts
           charged with maintaining databases. anaLytical tools. and recurring status
           reponing. In formulating its conclusion regarding ··lov. number of stafT
           performing c!lTIled value and schedule management activities...." the 010 only
           discusSl..""S the lattcr threl; analysts wilh database responsibilities. Thus. the finding
           is not accurate because there were actually up 10 cight analySIS assigm:d for these
           responsibilities. and S131 cominucs to assert that this was 1111 adequate number of
           analYSIS 10 perform all assigned COntrol responsibilities.
       •    (page 9. -I1h paragraph) The DIG asserts Ihat SBll1eeds mon: cost and schedule
           analysts because of a failed program assumption that ··cornmercial..aff-the-shelf
           (COTS) tcchnology would be available to cover SBlllel needs." First. and
           contra!) to the OIG's assenion. the current SBlnel solution in operation today ill
           Tllcson is in fact predominantl) COTS equipment. So the SBl acquisition
           strategy relying on COTS remains \ alid. Additionally. the COTS aspect of the
           SBlnl'/ program does not relate at all to the number of COSI and schedule analysts
           needed in the program_ so CBP recommends this paragraph be removed.

    A summary ofCBP actions and correcli\'c plans 10 address thc four recommendations is
    provided belO\\:

    Rt'\:ommendation 1# I: Ensure that no v. ork is performed \\ ilhout adequate
    corresponding performance measurcment baselines in thc Earned Value
    Management System.

    CIJP Response: CBP concurs with the recommendation. For this 2008 re\ie\\. S81
    shared two signific.'1nt issues \\ ith Ihe OIG Ihat contributt:d to this deficiency: program
    \"ohnililY and breakdowns ill following program processes. O\'('r thc past 18 months, SI3I
    has made considerable progress in stabi1i7ing thc program and projl.'Cl plans following the
    Department baselining of the Block I program and associated Boeing contract task
    orders. This included joint Go\emment-Boeil1g elTorts that established elTcetive
    performance baselines for authori ...-<:d contracted work. conducted refresher training




                  Controls Over SBInet Cost and Schedule Could Be Improved 


                                                 Page 19 

Appendix B
Management Comments to the Draft Report

                                                4


  regarding earned value and baseline management practices, and ultimately m:onciled
  procedures for maintaining perfonnance measurement baselines consistent with program
  and comraclor Earned Value Management System (EV~S) guidelines.

  eRP requests thalthc DIG consider updating the Recommendation 1 to read. "Ensure
  that all authorized work efTort. subject 10 earned value management system requirements.
  is incorporated into the perfonnance measurement baseline in accordance with prescribed
  s)'sh:m guidelines:' This change avoids prescribing EVMS policy for work that is not
  approprilliely subjecllo EYMS (e.g.. low dollar \aluc efforts on support contracts. level
  of elTon tasking. linn-fixed price tasks. C1C.) -the assertion that no work is to be
  perfomlcd without an [VMS baseline is simply too broad.

   Due Date: CBP believes thc intcm of this rcrommcndation has becn satisfied and
   requests closure of the recommendation.

  Recommendation 1: De""e!op and implement a process to documcnt government review
  and acceptance of program cvcnts' accomplishments and criteria. Documentation should
  clearly show program office evaluation and justification for approval and acceptance of
  all accomplishments and criteria for a program evenlto cenif)' deli\ erables meet projcrt
  objectives and events are adequately completed before the program progresses.

   CHI' Response: CBP concurs with the recommendation. fhe SBI Program Office has
   made considerable progress in establishing formal processes and lools to manage
   program information requirements for key program events. First. SBl rcdoubled efforts
   with the Block I Program Integrated Managcment Plan (IMP) to clearly identify major
   program events. the required significant accomplishments. and the associated success
   criteria for each of the events. In addition. SBl recently stood up thc Systems
   Engineering Division and is developing a Tcchnical Revie\\ Manual (TRM) that
   documents the artifacts required for reviC\\ andlor fulfillment of significant technical
   reviews and program milestones. The re\'iew requirements are being integrated into the
   Program IMP to serve as the success criteria for the major program e\ ents. consistent
   with the OIG l\."l;ommcndation. A current organizational chart Ivith functional
   responsibilities for cach SBl directorate has been prm ided to the orG eleetronieall)'.

   Dul' DlIte: Thc cstilllated completion date is December 201 O.

   Rccomml'ndation 3: Ensure that program events have been properly completed to
   smisfy all cntry and exit criteria. address and assess all issues. agrec on thc status. and
   complctc an updatcd risk asscssment before proceeding with subsequent program e\ ents.

   CHI' Responst': CBP concurs with the recommendation. Not\\ ithstanding our general
   concurrence with this recommendation. CBP is concerned with the accuracy and context
   for the findings and analysis supponing this recommendation. In gcneraL exit criteria for
   key prugT'llm events arc intponantto ensure thorough task planning and to assess progress
   and risks with cOlltinuing beyond the respective key e\"enls. Exit criteria. howe\er. are
   not absolute. meaning not every single criterion needs to be fully resolved prior to
   advancing in the program. Rather. the Program Manager will make a risk-ba.<;ed




                   Controls Over SBInet Cost and Schedule Could Be Improved 


                                               Page 20 

Appendix B
Management Comments to the Draft Report


                                              5

 determination on \"helher. and ho\\. to advance based all the nature of Opt'n work
 (unfulfilled criteria) and the scope of the ensuing tasks.

  Such was the casc when SBl and the DHS ARB revie"cd the initial System Qualifkation
 Testing (SQT) results and the live major "deficiencies" (refer to page 8 of the draft OIG
 rcpon). For these specific reviews with the Department. SBI presented clearly the
 informalion gained. the information )'et needed. and the asso<.:ialcd tasks thai could be
 initiated "hill,' SBI continued to address the remaining technical concerns and planning
 updates. The Dcpanmem largely agreed with Sal's recommendations. IIppro\ed in
 January 2009 (documented in the February 2009 ADM) the initial construction activities
 for TUS-I sensor and communications to\\crs and the command center upgrades (Note:
 the OlG draft report does not accurately report this guidance from thc Februar) 2009
 ADM). Because of open requirements (I.e.. higher risk). thc Department deferred the
 deployment of sensor payloads to TUS-I and deferred all eonstrtlclion at AJO-l until 581
 completed and presented additional engineering and tesling information.

  1'111: OIG report. therefore. inaccurately concludes (last sentence. first complde
  pamgraph. page 8) thalthe 581 Program Office did not assess all issues prior to
  commencing TUS·1 deployment. 581 and DHS senior stalT did assess risks. and
  rendered a risk-based decision to continue with a limited deployment aeti\it) as
  articulated in the Departmental ADMs.

  Due Date: eBp believes the intent of this recommendation has heen satisfied and
  requests closure of the rcrommcndation.

  Recommendation -I: Reevaluate the 513111('1 program staffing plan and ensure that an
  adequate number of earned value and schedule management anal} SiS arc in place to
  support the current \\orkload for the SBl/lcl acquisition and to implement all control
  dutics assigned. as prescribed in the Progmm Management Plan.

  eBI' Response: eBp concurs \\ ith the recommendation. In March 2009. the SUI
  Program Office reorganized. updated staffing plans. and initialed hiring actions for an
  appropriate number of go\emment earned \alue and schedule management analysIS
  deployed throughout the program office. In October 2009. the OIG was provided a copy
  of the then current SBI organ izmion chan and a staffing roster of SBI personnel \\ ith
  position alignments. SBI considered the number of earned \ alue and schedule
  management analysts sufficient to support the current workload. as prescribed in the
  Program Management Plan.

  I)u£ Date: CBI' believes the intent of this recommendation has been satisfkd and
  requests closure of the recommendation.




                  Controls Over SBInet Cost and Schedule Could Be Improved 


                                             Page 21 

Appendix B
Management Comments to the Draft Report


                                                 6


   With regard to the classification of the draft report. CBP has not identified an}
   infonnation within this report thai I\Quld warmnt a "For Oflicial Use Only"
   classification. Technical comments 10 this report Ilere pro\ ided 10 the GIG
   electronically.

    [f) au have any questions regarding this response. please contact me or hal Ca member of
    your staIT contact Ms. PallY Quintana. CBf' Audit Liaison. a\ (202) 344-1038.




                   Controls Over SBInet Cost and Schedule Could Be Improved 


                                                 Page 22 

Appendix C
Major Program Events



     Major Program Events            Scheduled           Date                 Date of Review
                                       Date of         Review                  Acceptance by
                                       Review        Took Place                 Government
    System Requirements              1/19/07         1/22-23/07        Government close out
    Review                                                             letter is dated 3/20/07. This
                                                                       milestone was accepted
                                                                       with incomplete
                                                                       information. 6

    System Preliminary Design        4/27/2007       4/27/2007         This milestone was
    Review                                                             supposed to be closed out
                                                                       when B-Specs and
                                                                       comments were closed out
                                                                       but no Preliminary Design
                                                                       Review close out letter
                                                                       exists. This Preliminary
                                                                       Design Review closed as
                                                                       entrance criteria for
                                                                       Critical Design Review

    System Critical Design           6/25/07         6/3-5/08          Government close out
    Review (BLOCK 1)                                                   letter is dated 10/31/08

    System Qualification                                               Projected to begin in
    Testing                                                            9/2009.




6
 A close out letter is sent by the government to the contractor once the contractor presents documents
addressing any deficiencies, comments, or changes that must be made for the government to officially
accept the review. This is a not a formal process for documenting when the government accepts successful
completion of a review, nor does the letter show what criteria was met to accept the review.
       SBInet Program Office Needs to Enhance Control Over the Program’s Cost and Schedule
                                                Page 23
         Appendix D
         Key Program Documents

Key Program
                                Document Description                                     Purpose of Document
 Document
Integrated         The Integrated Master Plan is an event-driven plan    The Integrated Master Plan and its supporting detail
Master Plan        that documents the significant accomplishments        schedule provides an overarching framework against
                   necessary to complete project work and ties each      which all work is accomplished. It documents all the
                   accomplishment to a key program event.                tasks required to deliver a high quality product and
                                                                         facilitate success throughout the product's life cycle.
Integrated         The Integrated Master Schedule is an event-based      The key milestones in the Integrated Master Schedule
Master             schedule and will include all major program,          represent significant events in the program and will be
Schedule A         System Prime (contractor), and other stakeholders'    identified during the development of project-level or
monthly            schedule tasks, milestones, and dependencies. The     program office schedules. Program management
deliverable        Integrated Master Schedule will provide for           review of key milestones ensures an effective
required by the    automated import and export of component              mechanism for reporting, tracking, and managing
contractor.        schedules and enable network and "what if"            project progress and ensures that delivered products
                   analysis to provide program management with           and services meet established and agreed to project
                   timely visibility into key dates and milestones to    objectives. The Integrated Master Schedule is used by
                   ensure effective program management. The              the Government and contractor team as the day-to-day
                   Integrated Master Plan and Integrated Master          tools for planning, executing, and tracking program
                   Schedule are fundamental management tools that        technical, schedule, and cost status, including risk
                   are critical to performing effective planning,        mitigation efforts.
                   scheduling, and execution of work efforts.
Work               The Work Breakdown Structure is an exhaustive,        Investment programs, projects, and contracts, will use
Breakdown          product-oriented, hierarchical tree structure of      EVM against established Work Breakdown Structures
Structure          tasks or deliverables that need to be performed in    at sufficient levels to assess performance against
                   order for an investment program or project to be      milestones and allocated budgets. The Work
                   completed. It is the basis for structuring earned     Breakdown Structure should be used to develop the
                   value management. The Work Breakdown                  cost estimate and the program schedule and to set up
                   Structure is an essential part of earned value        the earned value management performance
                   management cost, schedule, and technical              measurement baseline. The Work Breakdown
                   monitoring because it provides a consistent           Structure can help define high-level milestones and
                   framework against which to measure progress.          cost driver relationships. The Work Breakdown
                                                                         Structure enables leadership to make better decisions
                                                                         about where to apply contingency reserve and where
                                                                         systemic problems are occurring.




                  SBInet Program Office Needs to Enhance Control Over the Program’s Cost and Schedule 

                                                            Page 24
 

        Appendix D
        Key Program Documents


Performance    The performance measurement baseline represents      Baselines are necessary for defining the time-phased
Measurement    the cumulative value of the planned work over        budget plan from which actual program performance is
Baselines      time. The performance measurement baseline is        measured. Baselines are used to detect deviations from
               essentially the resource consumption plan for the    the budget plan and give insight into problems and
               program and forms the time-phased baseline           potential impacts. Deviations from the baseline
               against which performance is measured.               identify areas where management should focus
                                                                    attention.




              SBInet Program Office Needs to Enhance Control Over the Program’s Cost and Schedule 

                                                       Page 25
 

Appendix E
Major Contributors to This Report

                      Washington, D.C. Office

                      Alex Best, Director, Border Security Division
                      Inez Jordan, Desk Officer, Border Security Division
                      Brandon Landry, Program Analyst
                      Melissa Woolson, Program Analyst
                      James Bess, Independent Referencer

                      Miami, Florida, Field Office

                      Yeseira Diaz, Audit Manager
                      Armando Lastra, Auditor
                      Vanessa Santos, Auditor




    SBInet Program Office Needs to Enhance Control Over the Program’s Cost and Schedule 

                                          Page 26
 

Appendix F
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      DHS Audit Liaison
                      Acting Commissioner, Customs and Border Protection
                      Director, SBI Program Executive Office
                      OIG Liaison, CBP

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




    SBInet Program Office Needs to Enhance Control Over the Program’s Cost and Schedule 

                                          Page 27
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
